No. 20-437
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
REFUGIO PALOMAR-SANTIAGO
________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the CONDITIONAL CROSS-MOTION OF THE UNITED STATES IN RESPONSE TO
MOTION FOR LEAVE TO FILE SUPPLEMENTAL BRIEF AFTER ORAL
ARGUMENT, via e-mail and first-class mail, postage prepaid, this 4th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1,138 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 4, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 4, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0437
USA
REFUGIO PALOMAR-SANTIAGO

GINA D'ANDREA
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVE, NW
SUITE 335
WASHINGTON, DC 20001
202-232-5590
GDANDREA@IRLI.ORG
202-464-3590(Fax)
JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM
BRADLEY N. GARCIA
O'MELVENY & MYERS LLP
1625 EYE STREET, NW
WASHINGTON, DC 20006-4061
202-383-5160
BGARCIA@OMM.COM
CHRISTOPHER J. HAJEC
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVENUE, NW
SUITE 335
WASHINGTON, DC 20001
202-232-5590
CHAJEC@IRLI.ORG

AARIN KEVORKIAN
ASSISTANT FEDERAL PUBLIC DEFENDER
411 E. BONNEVILLE AVENUE
SUITE 250
LAS VEGAS , NV 89101
702-388-6577
AARIN_KEVORKIAN@FD.ORG
ALEXIA D. KORBERG
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019
212-373-3000
AKORBERG@PAULWEISS.COM
TOBIAS S. LOSS-EATON
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8000
TLOSSEATON@SIDLEY.COM
202-736-8711(Fax)
RICHARD W. MARK
GIBSON, DUNN & CRUTCHER LLP
200 PARK AVE.
NEW YORK, NY 10166
212-351-4000
RMARK@GIBSONDUNN.COM
DAVID MENNINGER
DEPUTY FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012
213-894-2854
DAVID_MENNINGER@FD.ORG

BRIANNA FULLER MIRCHEFF
OFFICE OF THE FEDERAL PUBLIC DEFENDER
321 E. 2ND STREET
LOS ANGELES, CA 90012
BRIANNA_MIRCHEFF@FD.ORG
DAVID A. O'NEIL
DEBEVOISE & PLIMPTON LLP
801 PENNSYLVANIA AVENUE N.W.
WASHINGTON, DC 20004
202-383-8000
DAONEIL@DEBEVOISE.COM
MATHEW S. VOGEL
THE NATIONAL IMMIGRATION PROJECT OF
THE NATIONAL LAWYERS GUILD
2201 WISCONSIN AVE.
SUITE 200,
WASHINGTON , DC 20007
617+227-9727
MATT@NIPNLG.ORG

